HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title
IV-D Children in New Jersey Under the State Children Health Insurance Program,"(A-02-02-02007)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in
New Jersey Under the State Children Health Insurance Program," (A-02-02-02007)
August 20, 2004
Complete
Text of Report is available in PDF format (1.27 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that New Jersey has an opportunity to increase enrollment in the State
Children’s Health Insurance Program (SCHIP) and have noncustodial parents pay a portion of the associated costs.  Based
on a statistical sample, we estimated that 63,833 Title IV-D children would have been eligible to receive SCHIP benefits
from September 1, 2001 through August 31, 2002.  The noncustodial parents of 37,194 of these children could have contributed
$17.5 million toward the $28.2 million in premiums that would have been incurred if the children had been enrolled.  We
also determined that 3,917 Title IV-D children received SCHIP benefits during the audit period.  An estimated 2,203
of these children had noncustodial parents who could have contributed $1.0 million toward the $1.3 million in SCHIP premiums
paid on behalf of their children.  We recommended that New Jersey take appropriate steps to recover SCHIP premiums
from noncustodial parents with medical support orders and the ability to pay for their dependent children.